>
I

C@QCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 19-351

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,

Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE FLORIDA
HOLOCAUST MUSEUM, RABBI JOSHUA KALEV, RABBI TOIVE WEITMAN, THE SAO
PAULO MEMORIAL OF JEWISH IMMIGRATION AND THE HOLOCAUST, AND THE
INSTITUTE FOR THE DEVELOPMENT AND PRESERVATION OF CULTURE AND
SELF-SUFFICIENCY (IDPCSS) AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the

above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being

prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 6261 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 27th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Qudraw- Kh, Chl

 

f GENERAL NOTARY-State of Nebraska Kons.
RENEE J. GOSS 9
My Comm. Exp. September 5, 2023 .

Notary Public

40271
